TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Tax-Exempt Hospital Industry Compliance
                  With Community Benefit and Compensation
                    Practices Is Being Studied, but Further
                     Analyses Are Needed to Address Any
                                Noncompliance



                                          March 29, 2007

                              Reference Number: 2007-10-061




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 29, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Tax-Exempt Hospital Industry Compliance With
                             Community Benefit and Compensation Practices Is Being Studied, but
                             Further Analyses Are Needed to Address Any Noncompliance
                             (Audit # 200610040)

 This report presents the results of our review to determine the purpose and scope of the Exempt
 Organizations (EO) function’s tax-exempt hospital compliance project and how management
 intends to use the results to address potential noncompliance in the industry. A Senior Staff
 Advisor of the Senate Finance Committee voiced concerns to the Treasury Inspector General for
 Tax Administration that laws governing tax-exempt hospitals have not changed since their
 inception in 1956 and revisions in 1969, and there seems to be little difference between
 tax-exempt and for-profit hospitals. The Senior Staff Advisor requested that the Treasury
 Inspector General for Tax Administration review the Tax Exempt and Government Entities
 Division’s planned actions related to compliance in the tax-exempt hospital area.

 Impact on the Taxpayer
 According to the Congressional Budget Office, nonprofit hospitals received more than $6 billion
 in Federal tax exemptions in 2002. EO function management is conducting the hospital
 compliance project to assess how tax-exempt hospitals believe they provide a community benefit
 in exchange for tax-favored status. Management stated that project information may assist them
 in differentiating tax-exempt hospitals from for-profit hospitals and could result in regulatory
 changes or a Revenue Ruling.
                   Tax-Exempt Hospital Industry Compliance With Community
                   Benefit and Compensation Practices Is Being Studied, but
                  Further Analyses Are Needed to Address Any Noncompliance



Synopsis
As part of this compliance project, the EO function sent a 9-page questionnaire to 544 tax-exempt
hospitals soliciting information on compensation practices and the community benefit standard. At
the time of our fieldwork, the function was still analyzing the questionnaire responses and
identifying potential examinations of organizations based on the manner in which executive
compensation was determined. If information gathered in the compliance project shows hospitals
are performing only minimum actions to meet the community benefit standard, the function will
consider initiating examinations in this area. Management stated that project information also
may assist them in differentiating tax-exempt hospitals from for-profit hospitals and in
determining whether legislative action would improve the Internal Revenue Service’s (IRS)
ability to administer tax laws in the tax-exempt hospital industry. Additionally, the compliance
project will gather information about the practices and procedures tax-exempt organizations use to
assign compensation to executives and other outsiders and enhance compliance in this area, if
necessary.
When the analyses are completed, EO function management will prepare two reports summarizing
the results of the analyses of the questionnaires and related examinations. An interim report, due
in July 2007, will present the results of the tax-exempt hospitals’ responses to the community
benefit questions and include any recommendations on the next steps planned by the IRS to
address the community benefit standard. At the end of our fieldwork, EO function management
had not yet determined whether the interim report will be made publicly available. After the
examinations related to executive compensation are completed, in September 2008 management
plans to publicly issue a final report summarizing the results of the tax-exempt hospital
compliance project. This report will provide an update on the community benefit standard since
the issuance of the interim report; will include a summary of the examination results related to
excess compensation; and could include recommendations to improve future compliance by
tax-exempt hospitals, recommendations related to education and outreach efforts needed in these
areas, and additional training for function personnel in compensation analysis for tax-exempt
hospitals.
While the EO function has specific plans for addressing potential noncompliance for the
executive compensation issue, it is still in the process of evaluating the responses and has not
determined what is needed for the community benefit issue. Because of the complexity that
currently exists in the industry and the potential for new regulations, we believe it is premature to
plan for a final project report covering both executive compensation and community benefit
issues. If extensive action is needed to address noncompliance in the community benefit area,
including developing new Revenue Rulings or recommending regulatory changes, management
may need to develop separate plans to accomplish this.



                                                                                                     2
                  Tax-Exempt Hospital Industry Compliance With Community
                  Benefit and Compensation Practices Is Being Studied, but
                 Further Analyses Are Needed to Address Any Noncompliance



Recommendation
We recommended the Director, EO, Tax Exempt and Government Entities Division, ensure the
interim report includes all planned actions related to community benefit issues and develop plans
to prepare a separate final report on this issue if all necessary actions will not be completed for
inclusion in the final compliance report scheduled for issuance in September 2008.

Response
IRS management generally agreed with our recommendation. The interim report will reflect the
progress of the community benefit component of the hospital compliance project, contain a
description of the community benefit activities undertaken by hospitals that responded to the
questionnaire, and outline the IRS’ immediate next steps based on an assessment of the data.
Management stated it was too early in the process to determine the need for a supplemental
report on community benefit, or the precise next steps in the area, but agreed to issue a
supplemental report if necessary. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                  3
                         Tax-Exempt Hospital Industry Compliance With Community
                         Benefit and Compensation Practices Is Being Studied, but
                        Further Analyses Are Needed to Address Any Noncompliance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Exempt Organizations Function Management Has Initiated Actions to
          Begin Assessing the Community Benefit and Compensation Practices
          of Tax-Exempt Hospitals ..............................................................................Page 4
                    Recommendation 1:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
          Tax-Exempt Hospital Industry Compliance With Community
          Benefit and Compensation Practices Is Being Studied, but
         Further Analyses Are Needed to Address Any Noncompliance




                       Abbreviations

EO               Exempt Organizations
I.R.C.           Internal Revenue Code
IRS              Internal Revenue Service
                     Tax-Exempt Hospital Industry Compliance With Community
                     Benefit and Compensation Practices Is Being Studied, but
                    Further Analyses Are Needed to Address Any Noncompliance




                                       Background

Charities, educational institutions, and religious organizations are among those entities exempt
from Federal income tax under Internal Revenue Code (I.R.C.) Section (§) 501(c)(3).1 Although
tax-exempt hospitals are not specifically listed in this
Code section, they have long been recognized as                   Nonprofit hospitals received
charitable activities when certain conditions are met.           more than $6 billion in Federal
Specifically, a hospital must be organized and operated              tax exemptions in 2002,
exclusively for charitable purposes, and it may not be                   according to the
                                                                  Congressional Budget Office.
operated, directly or indirectly, for the benefit of private
interests. Health-related organizations make up the largest
percentage of I.R.C. § 501(c)(3) nonprofit organizations
and account for almost 60 percent of total revenues. Hospitals generate almost three-quarters of
the total revenue of health-related organizations.
The Exempt Organizations (EO) function of the Tax Exempt and Government Entities Division
is responsible for ensuring organizations exempt from Federal income tax comply with
applicable I.R.C. sections and regulations. The more recent of the 2 most significant Revenue
Rulings related to tax-exempt hospitals was issued by the Internal Revenue Service (IRS) almost
40 years ago:
    •   Revenue Ruling 56-185,2 issued in 1956, established the “charity care standard,” which
        required that, in exchange for exemption from paying taxes, a hospital must admit and
        treat patients who are unable to pay either without charge or at rates below costs.
        Because uncompensated care had to be provided to the extent of the hospital’s financial
        ability, this became known as the “financial ability standard.”
    •   Revenue Ruling 69-545,3 issued in 1969, established the “community benefit standard” that
        modified the financial ability standard. The standard required that, in exchange for
        exemption from paying taxes, a hospital must operate for the benefit of the community
        rather than serving private interests. The community benefit standard was established after
        passage of the Medicare/Medicaid laws in the mid-1960s that provided medical care for the
        elderly and poor, making the charity care standard obsolete. The community benefit
        standard is still applied today in the tax-exempt hospital industry.




1
  I.R.C. § 501(c)(3) (2006).
2
  Rev. Rul. 56-185, 1956-1 C.B. 202.
3
  Rev. Rul. 69-545, 1969-2 C.B. 117.
                                                                                             Page 1
                      Tax-Exempt Hospital Industry Compliance With Community
                      Benefit and Compensation Practices Is Being Studied, but
                     Further Analyses Are Needed to Address Any Noncompliance



Revenue Ruling 69-545 states that a hospital otherwise qualified for tax-exempt status will meet the
community benefit standard when it has a board of directors composed of prominent citizens drawn
from the community; has a medical staff consistent with the size and nature of its facilities that is
open to all qualified physicians in the area; operates a full-time emergency room open to all persons
without regard to their ability to pay;4 and provides hospital care for everyone in the community
able to pay the cost either themselves, through private health insurance, or with the aid of public
programs such as Medicare.
The Government Accountability Office has stated there is often little to no difference between
for-profit and tax-exempt hospitals when it comes to charity care and community benefits provided.
The IRS Commissioner has commented that some tax-exempt health care providers may not differ
markedly from for-profit providers in their operations, their attention to the benefit of the
community, or their levels of charity care. Both the Senate Finance Committee and the House
Ways and Means Committee have voiced concerns related to whether taxpayers receive a public
benefit in exchange for the billions of dollars of tax subsidies received by tax-exempt hospitals each
year. In December 2005, a Senior Staff Adviser of the Senate Finance Committee expressed
concerns to the Treasury Inspector General for Tax Administration that laws governing
tax-exempt hospitals have not changed since their inception in 1956 and revisions in 1969, and
there seems to be little difference between tax-exempt and for-profit hospitals. Additionally,
media reports of seemingly excessive compensation and loans to executives of charitable
organizations have caused concern among donors, State and Federal regulators, and the public.
An exempt organization must pay no more than reasonable compensation for services performed
by its officers, trustees, and employees based on I.R.C. § 501(c)(3) prohibitions against
inurement and private benefit.5
The IRS faces numerous challenges in administering oversight of the tax-exempt hospital
industry. From Fiscal Year 1995 through the first half of Fiscal Year 2005, the IRS examined
more than 375 health care organizations (out of a population of approximately 7,000), including
both hospitals and related organizations or parts of hospital systems. However, EO function
management stated that historical information related to closed examinations of tax-exempt
hospitals did not contain details sufficient to assess whether specific compliance issues related to
community benefit existed in the industry. In addition, the EO function’s inventory system
contains one specific code that includes medical care, educational, and research organizations.
This prohibits management from performing automated analysis of past compliance work
specific to tax-exempt hospitals.


4
  Rev. Rul. 83-157, 1983-2 C.B. 94 ruled that hospitals could qualify for exemption under the community benefit
approach even if they did not operate emergency facilities, as long as there were other indications of community
benefit.
5
  Inurement involves an insider (whether an individual or an entity) who takes the exempt organization’s profits in
some manner that benefits himself or herself. Private benefit encompasses those who are not only inside but also
“outside” the organization. All inurement is private benefit, but not all private benefit is inurement.
                                                                                                             Page 2
                      Tax-Exempt Hospital Industry Compliance With Community
                      Benefit and Compensation Practices Is Being Studied, but
                     Further Analyses Are Needed to Address Any Noncompliance



Also, there have been a number of changes in the health care industry affecting the application of
the community benefit standard since the issuance of Revenue Ruling 69-545. Testifying before
Congress in May 2005, the IRS Commissioner stated the IRS’ ability to regulate the compliance
of tax-exempt hospitals is difficult when industry practice, or the industry itself, has changed but
the rules have generally remained constant since 1969. The increased merger activity in the
health care sector in the 1980s and 1990s resulted in more complex business structures, evolving
this industry into something substantially different from what it was when guidance was last
issued. As a result of these challenges, outside stakeholders have raised the issue that it may be
the time for a more thorough review of the tax-exempt hospital area to determine whether (1) the
community benefit standard is still applicable and (2) there are bright-line tests6 that might be
available to aid tax-exempt hospitals in complying with the law and the IRS in administering it.
This review was performed at the EO function Examinations Great Lakes Area Office7 in
Chicago, Illinois. We also contacted Tax Exempt and Government Entities Division personnel
in Houston, Texas; Washington, D.C.; and Louisville, Kentucky, during the period July through
November 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




6
  A bright-line test is a clear division between what is acceptable and what is not from a legal, accounting, or
regulatory perspective.
7
  A geographic organizational level used by the IRS business units and offices to help their specific types of
taxpayers understand and comply with tax laws and issues.
                                                                                                                   Page 3
                      Tax-Exempt Hospital Industry Compliance With Community
                      Benefit and Compensation Practices Is Being Studied, but
                     Further Analyses Are Needed to Address Any Noncompliance




                                      Results of Review

Exempt Organizations Function Management Has Initiated Actions to
Begin Assessing the Community Benefit and Compensation Practices
of Tax-Exempt Hospitals
Changes to the health care industry have resulted in the appearance that there are very few
differences in the manner in which nonprofit and for-profit hospitals operate. This is compounded
by the fact that nonprofit hospitals annually receive billions of dollars in tax exemptions from
Federal and State sources. Figure 1 outlines the estimated value of tax exemptions provided to
nonprofit8 hospitals in Calendar Year 2002.
                 Figure 1: Estimated Value of Tax Exemptions Provided to
                          Nonprofit Hospitals, Calendar Year 2002
                                                                                  Value
                                                                          (billions of dollars)
                Corporate Income Tax (Federal)                                     $ 2.5
                Tax-Exempt Bond Financing (Federal)                                  1.8
                Charitable Contributions (Federal)                                   1.8
                Corporate Income Tax (State)                                         0.5
                Sales Tax (State and Local)                                          2.8
                Property Tax (Local)                                                 3.1
                TOTAL                                                            $ 12.69
              Source: Congressional Budget Office Nonprofit Hospitals and the Provision of Community
              Benefits paper dated December 2006.




8
  The terms “nonprofit” and “tax-exempt” are sometimes used interchangeably, but they are technically distinct. For
the purpose of Federal taxation, an organization may be deemed tax-exempt by meeting the requirements of
I.R.C. § 501. Nonprofit status, on the other hand, is granted by State Governments on the basis of criteria that vary
from State to State. However, in the Congressional Budget Office’s analysis, hospitals that identified themselves as
nonprofit in Medicare Hospital Cost Reports are assumed to be exempt from Federal, State, and local taxes.
9
  The numbers in Figure 1 do not add up to the total presented due to rounding.
                                                                                                             Page 4
                       Tax-Exempt Hospital Industry Compliance With Community
                       Benefit and Compensation Practices Is Being Studied, but
                      Further Analyses Are Needed to Address Any Noncompliance



EO function management stated its historical information related to tax-exempt hospitals did not
contain details sufficient to assess whether specific compliance issues existed in the industry. As a
result, they began a compliance project10 in Fiscal Year 2006 to learn more about current practices
of these hospitals. Management indicated the compliance project will identify the following
information:
     •   How tax-exempt hospitals believe they provide a community benefit in exchange for
         tax-favored status.
     •   Whether the community benefit standard is still applicable in today’s industry environment
         if these organizations operate in the same manner as for-profit hospitals.
     •   Whether a legislative action would improve the IRS’ ability to administer tax laws in the
         tax-exempt hospital industry.
EO function management believes information gathered during this project may assist the IRS in
restoring public trust in tax-exempt hospitals by identifying areas in which the function can provide
more education to its customers about complying with the regulations and in helping tax-exempt
hospitals establish strong internal governance structures so they can comply with the I.R.C. If
information gathered in the compliance project shows hospitals are performing only minimum
actions to meet the community benefit standard, the function will consider initiating examinations in
this area. Management stated that project information also may assist them in differentiating
tax-exempt hospitals from for-profit hospitals and could result in regulatory changes or a
Revenue Ruling, if necessary, related to a revised standard for tax-exempt status. Additionally,
the compliance project will gather information about the practices and procedures tax-exempt
organizations use to assign compensation to executives and other outsiders and enhance compliance
in this area, if necessary.

Methodology of the project
The EO function assembled a multifunctional team to plan and implement the compliance project.
The team prepared a detailed Action Plan and Project Proposal that outlined the objectives of the
project, required action items, dates, resources necessary, and potential actions that may be taken to
address issues identified.




10
  A compliance project is designed to address an identified issue, which may or may not be associated with a particular
market segment. In the past, the EO function has conducted compliance projects to assess and address known areas of
noncompliance through examinations, compliance checks, and educational programs. These projects are managed by a
project team, which is responsible for developing a strategy to address the issue if a method to address the issue is not
readily apparent.
                                                                                                                  Page 5
                      Tax-Exempt Hospital Industry Compliance With Community
                      Benefit and Compensation Practices Is Being Studied, but
                     Further Analyses Are Needed to Address Any Noncompliance



In May 2006, the project team sent a compliance check11 letter and 9-page questionnaire to
544 tax-exempt hospitals soliciting information on compensation practices and how tax-exempt
hospitals meet the community benefit standard. The questionnaire contained the following three
parts:
     •   The first part requested entity information, such as the organization’s name, employer
         identification number, and date of the most recently filed tax return.
     •   The second part requested information to determine whether and how the tax-exempt
         hospital demonstrates its qualification for exemption as an organization described in
         I.R.C. § 501(c)(3) under the community benefit standard as discussed in Revenue
         Ruling 69-545. Information gathered in this portion of the project will allow the
         EO function to determine:
         ¾ Whether nonemergency services are available to everyone with ability to pay.
         ¾ Whether the hospital treats Medicare and Medicaid patients in a nondiscriminatory
           manner.
         ¾ How the hospital deals with the uninsured.
         ¾ Whether and how determinations of financial responsibility are made.
         ¾ The nature and extent of the hospital’s charity care policies and, if such a policy
           exists, how the hospital distinguishes charity care from bad debt.
         ¾ The nature and extent of medical research programs.
         ¾ The hospital’s participation in partnerships, limited liability companies, joint
           ventures, and Subchapter S corporations.12
         ¾ The hospital’s financial relationship with staff members and other closely connected
           individuals and entities.
         ¾ What additional guidance, education, and/or compliance actions are appropriate.




11
   A compliance check is a review conducted by the IRS to determine whether an organization is adhering to
recordkeeping and information reporting requirements and whether an organization’s activities are consistent with
their stated tax-exempt purpose.
12
   A Subchapter S corporation has a limited number of shareholders and is a small business corporation that elects to
be a flowthrough entity for income tax purposes. Flowthrough entities describe certain entities, such as partnerships
and S corporations, because their income, losses, credits, and other tax items are generally distributed untaxed to
their owners.
                                                                                                             Page 6
                   Tax-Exempt Hospital Industry Compliance With Community
                   Benefit and Compensation Practices Is Being Studied, but
                  Further Analyses Are Needed to Address Any Noncompliance



   •   The third part requested information to identify abuses by hospitals that pay excessive
       compensation and benefits to their officers and other insiders. Information gathered in this
       portion of the project will allow the EO function to:
       ¾ Address the compensation of specific individuals and instances of questionable
         compensation practices and procedures.
       ¾ Increase awareness of tax issues as hospitals set compensation in the future.
       ¾ Learn more about the practices and procedures that hospitals are following as they set
         compensation.
       ¾ Gauge the existence and effectiveness of the controls employed by hospitals over
         compensation issues.
       ¾ Learn more about how hospitals report compensation to the IRS and the public on
         their annual Returns of Organization Exempt From Income Tax (Form 990).
The EO function originally requested a response from the 544 hospitals within 30 days, but a
30-day extension was granted.

Project status
The project team had received responses for 533 (98 percent) of the 544 questionnaires by the end
of our fieldwork; 41 (8 percent) of the 533 organizations indicated they were not tax exempt or had
been dissolved. The EO function initiated follow-up calls and letters to the 11 organizations that
had not responded.
At the time of our fieldwork, EO function management was analyzing the responses to the
community benefit questions. They stated that, when completed, this analysis may result in
recommendations to improve compliance for tax-exempt hospitals and differentiate their
operations from those of for-profit hospitals. Recommendations could include regulatory
changes or additional Revenue Rulings.
In addition, the function is beginning an analysis of the tax-exempt hospitals’ responses to the
executive compensation questions. As part of this analysis, personnel are performing three
separate steps to identify potential examinations of organizations based on the manner in which
executive compensation was determined. At the end of our fieldwork, management was
analyzing these responses to identify those tax-exempt hospitals that will be selected for
examination. Management stated the examinations related to executive compensation were
scheduled to begin in January 2007 and be completed by January 2008.




                                                                                               Page 7
                      Tax-Exempt Hospital Industry Compliance With Community
                      Benefit and Compensation Practices Is Being Studied, but
                     Further Analyses Are Needed to Address Any Noncompliance



Third-party input
Given the depth and complexity of the EO function’s tax-exempt hospital questionnaire, the
American Hospital Association13 requested that Ernst & Young, LLP perform an independent
analysis of the questionnaire’s community benefit answers submitted by their members. On
June 19, 2006, the American Hospital Association initiated a conference call that was open to
any hospital that had received the IRS questionnaire and included both Ernst & Young, LLP
and IRS personnel. The purpose of the call was to help clarify issues from the questionnaires
by providing the tax-exempt hospitals the opportunity to speak with IRS personnel. As a
result of the conference call, 132 of the 533 tax-exempt hospitals that had responded to
the EO function questionnaire also submitted copies of their questionnaires to
Ernst & Young, LLP personnel. Based on their analysis, Ernst & Young, LLP personnel
prepared a report and documented a number of “lessons learned” for the IRS, including:
     •   Allow tax-exempt hospitals to tell their community benefit story, in more than just
         yes/no or simple number responses. Community benefit may be difficult to measure,
         and relying on only yes/no or quantitative responses may be misleading.
     •   Request tax-exempt hospitals to provide copies of their community benefit reports
         with their Forms 990.
     •   Provide for clarity of definitions to ensure uniformity of answers. For example, one
         question asked if a tax-exempt hospital denied services to any individuals. A
         tax-exempt hospital that is “at capacity” would indicate to ambulances that it is
         unable to take new cases. Based on this, some hospitals may indicate they have
         denied services to individuals, while other hospitals may consider this normal hospital
         operation and answer no because they would not consider this denial of services.
In May 2006, the Catholic Health Association14 developed a supplemental report that can be
attached to Form 990. It believes attaching the supplemental report will promote consistency in
the reporting of community benefit information and share the community benefit
contributions of tax-exempt hospitals with the IRS and the public in a more organized,
comprehensive, and consistent manner. The Catholic Health Association believes that,
through enhanced reporting of community benefit practices, a tax-exempt hospital will be
better equipped to demonstrate to Government agencies and its community that its
tax-exempt status is warranted. The Chairman of the Senate Finance Committee issued a
statement praising this report and encouraged tax-exempt hospitals to use the report when
they file Forms 990.

13
   The American Hospital Association is the national organization that represents and serves all types of hospitals,
health care networks, their patients, and communities.
14
   The Catholic Health Association represents the nation’s largest group of tax-exempt health care sponsors,
systems, and facilities. Its membership is comprised of almost all of the Catholic health care providers in the United
States.
                                                                                                              Page 8
                   Tax-Exempt Hospital Industry Compliance With Community
                   Benefit and Compensation Practices Is Being Studied, but
                  Further Analyses Are Needed to Address Any Noncompliance



In Fiscal Year 2003, the EO function Examination office began a comprehensive project to
redesign the Form 990 to provide better compliance information to the IRS, the States, and
the public. This project will continue in Fiscal Year 2007, with a draft revision of the
Form 990 expected by summer 2007. EO function management indicated that additional
revisions to the Form 990 could be made to better identify community benefit actions of
tax-exempt hospitals and may assist in future compliance efforts, if warranted, based on their
analysis of the questionnaire responses.

Project work remaining
Through review of compliance project documentation and interviews with EO function
management, we determined two reports will be prepared summarizing the results of the
function’s analyses of the questionnaires and related examinations. First, an interim report will
present the results of the tax-exempt hospitals’ responses to the community benefit questions.
According to management, the interim report will summarize the information obtained from the
questionnaires and discuss how tax-exempt hospitals demonstrate their qualifications for
exemption as organizations described in I.R.C. § 501(c)(3) under the community benefit
standard articulated in Revenue Ruling 69-545. The interim report will also include any
recommendations on the next steps planned by the EO function to address the community benefit
standard. A draft of this report was tentatively scheduled to be provided on January 31, 2007, to
the Tax Exempt and Government Entities Division Executive Steering Committee for review.
The interim report is scheduled for issuance by July 31, 2007. At the end of our fieldwork,
management had not yet determined whether the interim report will be made publicly available.
After the examinations related to executive compensation are completed, in September 2008
EO function management plans to issue a final report summarizing the results of the tax-exempt
hospital compliance project. This report will provide an update on the community benefit
standard since the issuance of the interim report; will include a summary of the examination
results related to excess compensation; and could include recommendations to improve future
compliance by tax-exempt hospitals, recommendations related to education and outreach efforts
needed in these areas, and additional training for function personnel in compensation analysis for
tax-exempt hospitals. Management also may determine that more follow-up actions, such as
additional compliance initiatives/projects, are necessary for the tax-exempt hospitals industry.
Management tentatively plans to issue this report publicly, as has been done for past reports
summarizing the results of compliance projects such as the Credit Counseling Compliance Project
and the Political Activities Compliance Initiative. In both of those projects, the prepared reports
summarized the projects’ results and contained recommendations and enhancements for future
actions to address compliance issues. Those reports were issued publicly on the IRS Internet site.
According to the EO function Hospital Project Proposal, the final report for the Hospital Project
will include summarization of results, recommendations to improve future compliance,
educational efforts, training needs, and follow-up actions. While the EO function has specific

                                                                                             Page 9
                   Tax-Exempt Hospital Industry Compliance With Community
                   Benefit and Compensation Practices Is Being Studied, but
                  Further Analyses Are Needed to Address Any Noncompliance



plans for addressing potential noncompliance for the executive compensation issue, it is still in
the process of evaluating the responses and has not determined what is needed for the
community benefit issue. Because of the complexity that currently exists in the industry and the
potential for new regulations, we believe it is premature to plan for a final project report covering
both executive compensation and community benefit issues. If extensive action is needed to
address noncompliance in the community benefit area, including developing new Revenue
Rulings or recommending regulatory changes, management may need to develop separate plans
to accomplish this.

Recommendation
Recommendation 1: The Director, EO, Tax Exempt and Government Entities Division,
should ensure the interim report includes an assessment of how tax-exempt hospitals are
providing a community benefit, as well as any planned actions management determines are
necessary to address the community benefit standard (e.g., revised Revenue Rulings, discussions
with Department of the Treasury officials on potential regulatory changes, necessary education
and outreach efforts, potential examinations) based on their evaluation of this issue. In addition,
management should develop plans to prepare a separate final report on community benefit if all
necessary actions will not be completed for inclusion in the final compliance report scheduled for
issuance in September 2008.
       Management’s Response: IRS management generally agreed with this
       recommendation. The interim report will reflect the progress of the community benefit
       component of the hospital compliance project, contain a description of the community
       benefit activities undertaken by hospitals that responded to the questionnaire, and outline
       the IRS’ immediate next steps based on an assessment of the data. Management stated it
       was too early in the process to determine the need for a supplemental report on
       community benefit, or the precise next steps in the area, but agreed to issue a
       supplemental report if necessary.




                                                                                            Page 10
                  Tax-Exempt Hospital Industry Compliance With Community
                  Benefit and Compensation Practices Is Being Studied, but
                 Further Analyses Are Needed to Address Any Noncompliance



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the purpose and scope of the EO function’s
tax-exempt hospital compliance project and how management intends to use the results to
address potential noncompliance in the industry. Internal controls relate to management’s plans,
methods, and procedures used to meet its mission, goals, and objectives; include the processes
and procedures for planning, organizing, directing, and controlling program operations; and
include the systems for measuring, reporting, and monitoring program performance. We
determined the following internal controls were relevant to our audit objective: the
EO function’s policies, procedures, and practices for planning and implementing its
tax-exempt hospital compliance project. We reviewed these controls by interviewing function
management and analyzing applicable project documentation. We did not identify any
significant material weaknesses. To accomplish our objective, we:
I.     Determined whether the EO function provided adequate oversight in planning and
       implementing its tax-exempt hospital compliance project.
       A. Obtained and analyzed background documentation on the planning process of the
          project.
       B. Interviewed applicable project team members and determined their roles and
          responsibilities in the project.
       C. Determined how the function ensured the sampled organizations responded to the
          questionnaire and whether the responses were completely and accurately recorded.
II.    Evaluated how the EO function intends to use the results of the hospital questionnaires to
       identify and address noncompliance and to determine whether any changes to the
       community benefit standard are needed.
       A. Assessed the process to analyze project results and identify issues for further actions.
       B. Determined whether function management had identified any potential
          noncompliance issues from the responses received to date.
       C. Determined what steps, if any, the function will take to address the issues raised by
          the responses to the hospital questionnaire.
       D. Determined whether management had developed or plans to develop any guidance
          related to tax-exempt hospitals based on results to date.



                                                                                           Page 11
          Tax-Exempt Hospital Industry Compliance With Community
          Benefit and Compensation Practices Is Being Studied, but
         Further Analyses Are Needed to Address Any Noncompliance



E. Determined how management plans to report the results of the project to stakeholders
   and customers.




                                                                               Page 12
                 Tax-Exempt Hospital Industry Compliance With Community
                 Benefit and Compensation Practices Is Being Studied, but
                Further Analyses Are Needed to Address Any Noncompliance



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Gerald T. Hawkins, Acting Director
Jeffrey M. Jones, Audit Manager
Margaret A. Anketell, Senior Auditor
Donald J. Martineau, Auditor
Carol A. Rowland, Auditor




                                                                                    Page 13
                 Tax-Exempt Hospital Industry Compliance With Community
                 Benefit and Compensation Practices Is Being Studied, but
                Further Analyses Are Needed to Address Any Noncompliance



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 14
     Tax-Exempt Hospital Industry Compliance With Community
     Benefit and Compensation Practices Is Being Studied, but
    Further Analyses Are Needed to Address Any Noncompliance



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 15
 Tax-Exempt Hospital Industry Compliance With Community
 Benefit and Compensation Practices Is Being Studied, but
Further Analyses Are Needed to Address Any Noncompliance




                                                     Page 16
